IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

NO.

SCOTT ESTES
Petitioner

ve

UNITED STATES OF AMERICA
Respondent

PROOF OF SERVICE

STATE OF MAINE }
COUNTY OF CUMBERLAND }

DEPOSITOR, being first duly sworn, deposes and says:

That on August 11, 2021, within the time required by rule, a Petition for Writ of Certiorari in the
above entitled case was deposited in a United States Post Office mail box located in the City of Portland,
State of Maine, with first class postage prepaid, properly addressed to:

Clerk of the United States Supreme Court
1 First Street, NE
Washington, DC 20543

And that copies were also served upon Counsel for the Respondent:

Julia Lipez, AUSA
100 Middle Street, East Tower, Suite 6
Portland, ME 04101

And

The Solicitor General of the United States
United States Department of Justice

950 Pennsylvania Ave NW,

Washington, DC 20530

   

Robert C, Andrews, Esq.

Depositor, Affiant

117 Auburn Street, Suite 201
Portland, ME 04193>

Subscribed and Sworn to Before Me “. oe

This 11th day of August, 2027"

 

NICOLE STEINHAGEN ~~
NOTARY PUBLIC, MAINE ==
MY COMMISSION EXPIRES JUNE 44, 2626.”

    

County and State
